                                                       NATIONAL SCIENCE FOUNDATION
                                                       , OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

                         ..
  Case Number:;',;:-'    -    ~-~
                               '''.~
                               -;,.:;;.-~
                                                                                                 Page 1 of 1



                    The National Science Foundation (NSF) Office of Inspector General (OIG) conducted an
           inquiry into an allegation the Subject l submitted an NSF proposae containing plagiarism. Our
           initial analysis of this proposal and two other proposals3 he authored found copied text.

                  We contacted the Subject about the allegation, and his response did not dispel the
          allegations. We concluded there was sufficient evidence to proceed with an investigation.

                  We referred the matter to the University.4 The University concluded, based on a
          preponderance of the evidence, that the Subject carelessly, recklessly, and unintentionally
          committed plagiarism, deemed a departure from accepted practices. Th,e University required the
          Subject to take courses in scientific writing andtesearch ethics; to hire a professional editor to
          review his writing for at least 1 year; and to acknowledge the seriousness of the matter and
          adhere to the recommendations. The University also required the Subject's academic department
          mandate biannual certification for scientific ethics.

                   OIG assessed the Report for accuracy and completeness, and did not find the Report to be
          either fully accurate or complete. We adopted the findings in part, but could not accept the report·
                                                   ,                                                    '



          in its totality in lieu of conducting our own investigation. After further investigation, we
          concluded, based on a preponderance of the evidence, that the Subject knowingly committed
          plagiarismrin three proposals, deemed a significant departure from accepted practices.

                  We recommended NSF make a finding ofresearch misconduct against the Subject; send the
          Subject a letter of reprimand; require certifications from the Subject for a period of 1 year; require
          assurances from the Subject's supervisor for a period of 1 year; and require certification ofattending
          an ethics class within 1 year. The Deputy Director concurred with our recommendations.

                 This memo, the attached Report of Investigation, the Deputy Director's letter, and the
          Director's letter constitute the case closeout. Accordingly, this case is closed.




NSF oro Fonn 2 (11102)
CONFIDENTIAL                                                                              CONFIDENTIAL




       National Science Foundation
     . Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number A08110057

                                   April 28, 2010


 'This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
       NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552, 552a.

                                                                                   NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                         CONFIDENTIAL



                                      Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 23 sources from which approximately 110 unique lines and 1
                 embedded reference were apparently copied into 3 declined NSF proposals.
                 OIG referred the matter to the Subject's home institution.

University
Investigation
and Action:      The University concluded, based on a preponderance ofthe evidence, that the
                 Subject carelessly, recklessly, and unintentionally committed plagiarism,
                 deemed a departure from accepted practices,
                 The University required the Subject to take courses in scientific writing and
                 research ethics; to hire a professional editor to review his writing for at least 1
                 year; and to acknowledge the seriousness of the matter and adhere to the
                 recommendations. The University also required the Subject's academic
                 department mandate biannual certification for scientific ethics.
 OIG
Investigation:   OIG concluded that the Subject copied 110 unique lines and 1 embedded
                 reference from 23 sources, that the act constituted a significant departure from
                 accepted practices, and that the Subject acted knowingly.
OIG
Assessment:
                 • 	 The Act: The Subject committed plagiarism in three proposals.
                 • 	 Intent: The Subject acted knowingly.
                 • 	 Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 • 	 Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 • 	 Pattern: Three NSF proposals contain plagiarism.
OIG
Recommends:
                 •	   Make a finding of research misconduct against the Subject.
                 •	   Send the Subject a letter of reprimand.
                 •	   Require certifications from the Subject for a period of 1 year.
                 •	   Require assurances from the Subject for a period of I year.
                 •	   Require certification of attending an ethics class within 1 year.




                                                1
    CONFIDENTIAL                                                                          CONFIDENTIAL


                                                OIG's Inquiry

            OIG conducted an inquiry into an allegation that the Subject! submitted an NSF proposal
    (Proposal 12) containing copied text. Our initial analysis found approximately 88 lines and one
    embedded reference allegedly copied from 15 sources. Our initial analysis of two other proposals
    by the Subject identified additional copied text. Proposal 2 3 contained 38 lines allegedly copied
    from 13 sources; and Proposal 34 contained 451ines allegedly copied from 11 sources. 5          -


        OIG contacted the Subject about the allegation. 6 In his response/ the Subject said he
was familiar with only some of the OIG-annotated articles, and provided " ... two other articles
for each of the enquiry, where they have exactly same or similar [sic]." He said, in certain cases,
he did include citations in the final proposal, but noted that in his other papers that include the
same text, the text was mostly·cited. He concluded: "I will make sure that from next proposal I
will cite them properly."g

       We reviewed the Subject's response and found the documents he provided did not
support his assertion that the annotated text is used in the public domain without attribution.
Specifically, the Subject provided materials either authored by the same individuals as authored
the annotated sources we identified or materials containing language not significantly similar to
the sources we identified. We determined only Sources B and II were significantly similar to text
contained in other documents and thus were excluded from further investigation. 9

     OIG re-annotated the propdsals based on the Subject's response. 10 The following chart
summarizes the allegedly copied text in each proposal:




  Tab 4, Sources A-X. A description of each source is noted on the summary chart below.
6 Tab 5.
7 Tab 6, pg 1-2.
8 Tab 6, pg 1-2.
9 Sources B and 11 are contained in Tab 4.
10 Tab 7.




                                                       2
CONFIDENTIAL                                                                                        CONFIDE~'TlAL



                         Proposall                 Proposal 2     Proposal 3
      Source             (Declined)                (Declined)     (Declined)            Total (Unique)
      A (article)                            1.5     1.5 (x2)!1             1.5 (x2)                         1.5
      B (webpage)                   --                                    --                       --
      C (article)                       1 (x3)           1 (x3)                1 (x3)                       1
      D jarticle)                            6                6                     6                       6
      E (article)                          4.5                                                            1.5
      F (article)                          6.5                                   6.5                     6.5
      G (article)                            8                                                              8
      H jwebpage)                          5.5                                                           5.5
      I jarticle)                            1                                                              1
                                            30                                                            30
      J (article)        1 embedded reference                                           1 embedded reference
      K (article)                            2                                                              2 i
    I L (dissertation)                     5.5                                                           5.5
      Mjarticle)                           4.5                                   4.5                     4.5
      N (webpage)                            3               3                     3                        3
      o (newsletter)                         3                                     3                        3
      P (article)                                     3.5 (x2)                                           3.5 I
      Q (article)                                          l.5                                           1.5
      R (webpage)                                          3.5                                           3.5
      S (article)                                            4                                                4
      T (article)                                            3                                                 3
      U (article)                                          3.5                                               3.5
      V (article)                                          3.5                   5.5                         5.5
      W (article)                                          2.5                   2.5                         2.5
      X (article)               .                            4                     4                           4
      Total                           84 lines
     JNon~Unique)        1 embedded reference        38 lines              41 lines
                                      82 lines
     Total                        1 embedded                                                       110 lines
     (Unique)                       reference      34.5 lines            37.5 lines     1 embedded reference
                                                                                                         -
The totals for each proposal indicate the number of lines of copied text fu·each. The "Total"
column reflects the total number of lines from each source that are unique. Thus identical lines '
copied into more than one proposal were only counted once in the "Total" column. Hence, the
three proposals contain a total of 154 copied lines, some duplicated from one proposal to the
next. By eliminating the "recopying," there are a total of 110 unique copied lines in the three
proposals. We concluded there was sufficient evidence to proceed with an investigation.


                                         University Investigation

        Consistent with our policy, we referred the matter to the Universityl2 and informed the
Subject that we had done so. 13 The University, consistent with its policies,14 conducted an
investigation and produced an Investigation Report (Report) with attachments. 15

II ~e                      the number of times the lines of text appear in the respective proposals.
12~




                                                        3
 CONFIDENTIAL                                                                                       CONFIDENTIAL




         In its Report, the Investigation Committee (Committee) wrote: "An overall review of the
 statements reveal inconsistent or lack of citing direct quotes from previously published work,"
 with "citations [being] grouped and notated at the beginning of a paragraph rather than
 individually attributed to the direct quotations.,,16 The Committee concluded that 19 of the 26
 annotated sections17 constituted plagiarism, as described by NSF's defmition. The other seven
 sections,

                  were not deemed as plagiarism because a.) though the statements
                  had similar sentence structure as other sources in the literature,
                  they were specific to the professor's original ideas, b.) the
                  statement was derived from an open access article, c.) the
                  statements represent generically worded phrases that did not
                  represent original ideas and were found to have been used without
                  reference on internet sites. 18                     .

        The Committee determined the plagiarism constituted "a departure from the accepted
practices of the relevant research community," because "[i]t is only acceptable to use verbatim
statements from a previous published scientific work if the author acknowledges the source and
properly notates any such statements with citations.,,19 The Committee, however, "unanimously
agreed that the articles referenced in NSF's letter did not influence reviewers' decisions" as all
three proposals were declined?O

        Regarding intent, the Committee "deemed [the plagiarism) to be careless and reckless
due to the improper usage of citation rules and a lack ofreferencing verbatim and/or similar
language as previous works,,21 and "considered [it) to be unintentional due to carelessness
coupled with an inadequate understanding of the citation rules for authorship.,,22 The annotated
materials, it wrote, "were used by the professor in an attempt to provide background information
in support of his proposal" aI'ld not "meant to be construed as a representation ofthe professor's
original work. ,,23

        Lastly, though the Report does not address whether the Subject's plagiarism is indicative
of a behavioral pattern,the Committee's meeting notes state:

                  From initial review ofthe materials, D_appears to be basing
                  his use of the language on his previous use of the language in his

13  Tab 9.
14  Tab 8.
 15 Tab 10.
16 Tab 10, Attachment 1.7, pg 2.
17 Tab 10, Attachment 1·7, pg 4-6 contains a chart explaining the Committee's classification of annotated sections.
18 Tab 10, Attachment 1·7, pg 2.
19 Tab 10, Attachment 1-7, pg 2. The Committee provided no account of "the relevant research community."
20 Tab 10, Attachment 1·7, pg 11.
21 Tab 10, Attachment 1·7., pg 2.
22 Tab 10, Attachment 1·7, pg 3.
23 Tab 10, Attachment 1-7, pg 3.




                                                         4
 CONFIDENTIAL 	                                                                                    CONFIDENTIAL



                           publications and on other researchers' use of the materials as
                           background information. 24

                   Based on its fmdings, the Committee made the following recommendations:

                      1. 	 The professor takes a mandatory scientific writing course with
                           specific emphasis on proper citation rules and guideline ...
                      2. 	 The professor takes a mandatory course on Ethics in Scientific
                           Research.
                      3. 	 The professor enlists the services of a professional editor to review
                           any reports,proposals, or presentations that are prepared for any
                           type of submission for a period of not less than 12 months.
                      4. 	 The professor acknowledges to the Vice President for Research his
                           awareness of the seriousness of the allegations and that he will
                           adhere to these recommendations.
                      5. 	 The Chair off ]25 Department should mandate all [ ]26 faculties
                           achieve certification biannually in ethics in scientific research by
                           completing an ethics in a scientific research workshop.27


                                                  University Adjudication

                The Deciding Official28 accepted the Committee's findings and recommendations. 29


                                 ~iG's    Assessment of the University Investigation Report

        The University provided OIG with its Report, and OIG invited the Subject to provide
comment. 30 The Subject said he "agree[s] to comply with the recommendations of the
University committee," and has "started to follow the recommendations by attending the
[University] workshop on scientific ethics and plagiarism in scientific writing organized by the
[ ]31 Department. .." 32 He also attended a session regarding scientific ethics at a recent NSF
Regional Grants Conference. He said he has "learned more about ethics and plagiarism and some
of the up-to-date guidelines for scientific ethics." 33 .


                NSF's Research Misconduct regulation states:


                   ~""lJ.Ul"'H   1-7, pg 10.




31_
30


32
33
     f
         Tab 10, Letter.
         Tab 11.

         Tab 12.
         Tab 12.


                                                             5
 CONFIDENTIAL                                                                                        CONFIDENTIAL




                    After receiving a report from an external investigation by an
                    awardee institution or another Federal agency, OIG will assess the
                    accuracy and completeness ofthe report and whether the
                    investigating entity followed reasonable procedures. It will either
                    recommend adoption of the fmdings in whole, or in ~art or,
                    normally within 30 days, initiate a new investigation 34]

OIG assessed the Report for accuracy and completeness, and did not fmd the Report to be either
fully accurate or complete. Specifically, the Report was inaccurate in removing certain annotated
sections of copied text from analysis, and was incomplete in failing to specify whether the
Subject's actions were indicative of a pattern of behavior, identify the standards of the Subject's
research community, and assess the SUbject's level of intent. However, the University did
follow reasonable procedures in conducting its investigation, and produced an acceptable
evidentiary record with respect to the matters it did address. Therefore, we adopted the fmdings
in part, but could not accept the report in its totality in lieu of conducting our own investigation.


                                               OIG's Investigation

         Though the Committee's notes briefly address its review of whether a pattern of
plagiarism exists, the Report provides no further discussion. Based on statements the Subject
made both to the Committee and OIG3s and the presence of inadequately cited text in three NSF
proposals, we chose to examine an NSF proposal (proposal 4) the Subject recently submitted as
sole pI. 36 The Subject submitted Proposal 4 six months after receiving our inquiry letter, and
four and a half months after the University accepted our referred investigation. 37 Analysis of
Proposal 4 indicated seven non-consecutive lines from two sources ofpotentially inadequately
cited text. No material from the previously identified Sources was found in Proposal 4. Our
analysis suggests the Subject has learned from the investigatory experience and subsequent
ethics training, but requires further guidance in this area.

       We then reviewed the standards of the Subject's research community. Specifically, we
examined the ethical guidelines of the leading professional association38 in the SUbject's field.
The association has an Ethics Committee, whose website39 contains the association's code of

34   45 C.F.R. §689.9(a).                                                  .
3S   In the Subject's response to our inquiry letter (Tab 6, pg 2), he stated:
                     Since nowadays one can not get a fund until they have enough results to show
                    that their idea is working, usually I write and published some paper first and
                    then I submit proposal. And mostly I will use my paper material to write the
                    proposaL So it may possible some other language is common, but I believe those




                                                         6
 CONFIDENTIAL                                                                                   CONFIDENTIAL



 conduct40 and publications' ethical guidelines.41 The publication guidelines cleariy state: "An
 author should identify the source of all information quoted or offered, except that which is
 common knowledge.'.42 Additionally, the website43 contains specific information related to
 "Ethical and Professional Guidelines," including statements on "Plagiarism: Intellectual Property
 Rights" and "Proper Use ofSources.'>44 By not crediting others' contributions properly, the
 Subject violated accepted practices ofhis relevant research community.

        To better understand the Subject's level of intent, we reviewed his educational and
professional history. The Subject received his undergraduate and graduate education outside the
               45
United States.    However, after earning his Ph.D. in 1997, the Subject, served as a postdoctoral
fellow, a research associate, a research scientist, an assistant professor, and an associate
professor all within the United States. Further, all of the publications the Subject lists on his
Biographical Sketches46 are English language publications, and almost all are U.S.-based
journals. Given his professional experience and publication record, the Subject reasonably knew
he was not providing adequate attribution of other authors' text.

       Lastly, we re-reviewed the seven sections the Committee determined could be removed
from analysis. They47 are:

                                 Source   # of lines             Committee reasonin2
                                 C                       1       Open Source
                                 D1                      2       Generic langua~e
                                 E                     4.5       Generic language
                                 F2                      2       Generic language
                                 K                       2       Not verbatim statement
                                 N                       3       Generic language
                                 0                       3       Generic langua~e
                                                                                      -

Though Source C is from an Open Source document, we deem using text from any source
without attribution unallowable since doing so presents reviewers with an imprecise means of
eval.uating a PI's own knowledge. 48 For Sources DI, E, Nand 0, the Committee provided web
addresses for articles it said contained significantly similar language to the armotated text. Our
review of the articles indicated they contained only a fragment of the armotated text, or were
authored by the same individual as-authored the originally identified source. Source F2 was
removed by the Committee, yet no article was provided to prove the language was generic. In
fact, the Committee acknowledged "citations could have been placed after each method listed
rather than the generic grouping to avoid convusion [sic]:" Lastly, the Committee considered




        1-3.                   .
47 See Tab 10, Attachment 1-7, pg 4-6, for additional information about these sections.
48 Only one line was copied from Source C. Removing this line alone would not have altered our recommendations.




                                                             7
 CONFIDENTIAL                                                                      CONFIDENTIAL


 Source K text non-verbatim, yet our review indicated it was. Our re-review confmned the text
 was copied, and therefore these segments were copied without adequate attribution.


                                       OJG's Assessment

        A fmding of research misconduct by NSF requires (1) there be a significant departure
 from accepted practices of the relevant research community, (2) the research misconduct be
 committed intentionally, or lmowingly, or recklessly, and (3) the allegation be proved by ac




 preponderance of the evidence.49                .




                                            The Acts

        Our review found the Subject plagiarized 110 unique lines and one embedded reference,
of text from 23 source texts into three unfunded proposals. OIG concurs with the Report that tlie
Subject's actions constitute plagiarism, as described in NSF's defmition. We further concur that
the acts constituted a significant departure from accepted practices. In offering text written by
others as his own words, the Subject misrepresented his own efforts and presented reviewers
with an incorrect measure of his abilities.



        The University'S report was ambiguous regarding level of intent, deeming the act by
three levels of intent: careless, reckless, and unintentional. Based on our investigatory review
and the Subject's professional background, we conclude the Subject acted with a knowing intent
in copying material from sources into his proposals. The Subject did not contest he included
material from sources; he contested whether citation in many of the cases was necessary in his
proposals. Further, the inclusion of an embedded reference indicates he copied the complete
source into his proposal and/or that'he knew the appropriated text required citation.

                                       Standard ofProof

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance ofthe evidence.

        OIG concludes that the Subject, by a preponderance of the evidence, knowingly
plagiarized, thereby committing an act of research misconduct. 50




49    45 C.F.R. §689.2(c).
50   45 C.F.R. part 689.


                                               8
 CONFIDENTIAL                                                                                    CONFIDENTIAL



                                     OIG's Recommended Disposition

        When deciding what appropriate action to take upon a fmding of misconduct, NSF must
 consider:

                  (1) How serious the misconduct was; (2) The degree to which the
                  misconduct was knowing, intentional, or reckless; (3) Whether it
                  was an isolated event or part of a pattern; (4) Whether it had a
                  significant impact on the research record, research subjects, other
                  researchers, institutions or the public welfare; and (5) Other
                  relevant circumstances. 51          '


                                                  Seriousness

        The Subject's actions are a violation of the standards of scholarship and the tenets of
general research ethics and those within his research community. First; the extent ofthe
plagiarism - approximately 110 unique lines and one embedded reference within three unfunded
NSF proposals from 23 sources - is itself serious. Second, we note the copied text served to
misrepresent the Subject's body ofknowledge, causing reviewers to receive an inaccurate means
ofjudging the proposals' respective merit.


                                   Degree to which Action was Knowing

        Our office generally believes the act ofplagiarism is an act done knowingly. The Subject
acknowledged he copied text and an embedded reference into his proposals without attribution,
contesting only whether the copied material required citatioIf. In submitting the proposals, the
Subject knew he copied the text without attribution. We fmd his actions to be inherently
knowing.

                                                     Pattern

       orG concludes the current evidence - plagiarism in three proposals - supports a fmding
ofpattern within the Subject's actions. The minimal plagiarism, only seven lines, identified in a
recent NSF proposal the Subject submitted suggest the Subject still has not fully accepted his
need to cite sources adequately nor to adhere to NSF's expectations that proposals will be
prepared with the care afforded a publication. 52          ,




51
  45 C.F.R § 689.3(b).
52Grant Proposal Guide (GPG), Section LD.3. (January 2010). An identical provision existed in the GPG in effect at
the time the Subject submitted the proposals.


                                                        9
 CONFIDENTIAL 	                                                                        CONFIDENTIAL



                                                Recommendation

 Based on the evidence, OIG recommends NSF:

              • 	 send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct;53              .

              • 	 require the Subject to certify to ~IG's Associate Inspector General for
                  Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                  plagiarized material for 1 year;54

              • 	 require that the Subject submit assurances by a responsible official of his
                  employer to OIG's AlGI, that proposals or reports submitted by the Subject to
                  NSF do not contain plagiarized material for 1 year;55 and

              • 	 require the Subject to complete an ethics course, which includes discussion on
                  citation practices, within I year and provide certification of its completion to OIG
                  upon completion.                                              .




53 A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(1)(i)).
54 Certification by an individual is authorized in 45 C.F.R. §689.3(a).
55 Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).




                                                         10
                                  NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230

                                           OCT 1 2 2010


     OFFICE OF' THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice ofResearch Misconduct Determination


Dear D r . "
                                               to the National Science Foundation (''NSF'')




                                                          As documented in the attached
Investigative Report prepared by NSF's Office of Inspector General C"'OIG"), these proposals
contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF .,." 45 CFR § 689 .1 (a). NSF
defines "plagiarism" as "the appropriation of anotherperson's ideas, processes, results or words
without giving appropriate credit." 45. CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) 	There be a significant departure from accepted practices of the relevant research
            community; and
       (2) 	The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) 	The allegation be proven by a preponderarice of evidence.

45 CPR § 689.2(c).
                                                                                               Page 2
        Your proposals contained yerbatim and paraphrased text, as well as one embedded
reference, copied from 23 source documents. By submitting proposals to NSF that copied the
ideas or words of another without adequate attribution, as described in the OIG fuvestigative
Report, you misrepresented sOineOne else's work as your own. Your conduct unquestionably
constitutes plagia,rism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding ofmisconduct based on a preponderance ofthe evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report; NSF has detern:lined that,based on a preponderance ofthe
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of·
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and JJl) that can be
taken in response to a finding ofmisconduct. 45. CFR § 6893(a).Group I actions include
issuing a letter ofreprimand; conditioning awards on prior approval ofparticular activities from
NSF; requiring that an institution or individual obtain special prior approval ofparticlilar
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particlilar requirements. 45 CFR § 689.3(a)(I).
Group IT actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews ofrequests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of .
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CPR § 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct; I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have· illso considered the fact that you engaged in a pattern ofmisconduct, .and that
your misconduct had no impact on the research record. In addition, I have considered other
relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circ'QIIlstances of this case, I am taking the
following actions against you:

       (1) Until September 30, 2011, you must provide to the OIG certifications that any
           subniission you make to NSF as a PI or co-PIdoes not contain plagiarized, falsified,
           or fabricated material;             .

       (2) Until September 30, 2011, you must provide to the OIG assurances from your
           employer that any proposals or reports you make to NSF as a PI or co-PI does not
           contain plagiarized, falsified, or fabricated material; and

       (3) No later than September30, 2011, you must take a course on research ethics,with an
                                                                                            Page 3 .
           emphasis on proper citation and attribution, and certify to the OrG that you have
           completed such a course.                              .

       .The certifications should be submitted in writing to OlG, Associate1nspector General for
Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. lfwe do not receive your appeal within the 30-day period, this
decision will become fmal.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,



                                                ~~.~~
                                                    Cora B. Marrett
                                                    Acting Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R. Part 689
